                    National Aeronautics and
                    Space Administration

                    Office of Inspector General
                    Washington, D.C. 20546-0001



Reply to Attn of:   W                                                                    September 26, 2003



                    TO:            R/Acting Associate Administrator for Aerospace Technology
                                   ARC/D/Director, Ames Research Center
                                   GRC/0100/Director, John H. Glenn Research Center at Lewis Field
                                   LaRC/106/Director, Langley Research Center

                    FROM:          W/Assistant Inspector General for Auditing

                    SUBJECT:       Final Management Letter on Audit of Wind Tunnel Utilization
                                   Assignment Number A-03-007-00
                                   Report Number IG-03-027


                    NASA’s wind tunnels are national assets that help aeronautical researchers in NASA, the
                    Department of Defense, and industry to understand the forces acting on an object as it
                    moves through the atmosphere. In FY 2002, the Agency spent about $102 million in
                    providing wind tunnel services at the Ames Research Center (Ames), Glenn Research
                    Center (Glenn), and Langley Research Center (Langley).

                    We conducted this audit to identify the historical use of NASA wind tunnels, gather
                    information about planning and projections for wind tunnel utilization, compare historical
                    use to planning and projections, and identify the number of wind tunnels mothballed or
                    abandoned within the last 10 years. Additionally, we used the results of our work to
                    augment the RAND Corporation’s congressionally mandated Study of NASA's
                    Aeronautical Test and Evaluation Facilities. We provided our preliminary audit results to
                    the RAND Corporation on May 9, 2003. Enclosure 1 provides details on the scope and
                    methodology of the audit.

                    We found that the three Centers reviewed can improve their utilization data recording,
                    summarization, and reporting practices. Such improvements will allow the Agency to
                    achieve more effective oversight and management of its wind tunnel operations.

                    We also found that NASA had not previously compared historical utilization with
                    projected utilization; therefore, we gathered the information needed to make such
                    comparisons (see Enclosures 2, 3, and 4). Wind tunnels that NASA mothballed or
                    abandoned during the last 10 years are listed in Enclosure 5.
                                                                                             2


Data Recording, Summarization, and Reporting Practices Can Be Improved

Ames, Glenn, and Langley had not routinely recorded, summarized, and reported
comparable utilization data for their major wind tunnel facilities as illustrated below:

   •   The three Centers could readily provide comparable facilities utilization data,
       such as User Occupancy Hours (UOH), for only some of the Agency’s major
       wind tunnel facilities. We compiled comparable utilization data for the remaining
       major facilities after extensive coordination with the applicable wind tunnel
       managers.

   •   The method of calculating utilization rates varied significantly from Center to
       Center. Ames calculated utilization rates to show the use of wind tunnel staff
       rather than use of wind tunnel facilities. Glenn calculated utilization rates based
       on available workdays per fiscal year, and Langley calculated utilization rates
       based on capacity days for operation in a typical year.

   •   Historical utilization records for NASA’s wind tunnels had not been recorded,
       summarized, and reported to the Office of Aerospace Technology.

   •   The Office of Aerospace Technology had not requested that the Centers submit
       projected utilization data for the last 3 years.

   •   Some tunnel logs at Glenn and Langley were poorly organized and maintained.

   •   There was inconsistent record-keeping among the various Langley organizations
       that managed the day-to-day operations of the wind tunnels.

NASA's 2003 Strategic Plan recognizes the vital importance of comparability and
consistency:
       NASA is a large Agency, consisting of public servant and contractor employees,
       Field Centers across the United States, and facilities in foreign countries. With
       our new focus on a unified long-range Vision and Mission, it is imperative that
       all elements of the Agency work together as a single team. By developing
       common procedures, capabilities, tools, and organizations, we will ensure
       that the overall functioning of the Agency is as smooth and efficient as
       possible [emphasis added].

Wind tunnel utilization data was inconsistent among the Centers because the Office of
Aerospace Technology had not established Enterprisewide standards for recording,
summarizing, and reporting the data. Office of Aerospace Technology officials stated
that the Centers had been responsible for the strategic and operational management of
their respective wind tunnels because they were an integral part of the research programs
that were best managed by the Centers. The officials also stated that the Centers
maintained utilization data in a form that they, not the Office of Aerospace Technology,
believed best suited the Centers’ respective data needs. The Office of Aerospace
                                                                                          3

Technology indicated that when it required utilization data to carry out its Enterprise
management responsibilities, it solicited and received such data from the Centers and was
able to utilize the data in its varying forms to make required decisions.

Without the benefit of up-to-date and comparable utilization data, Office of Aerospace
Technology management has a diminished ability to make well-informed strategic and
operational decisions regarding current and future use of the Agency’s wind tunnels.
Further, wind tunnel management decisions may not always serve the best interests of the
Agency or the nation.

Recommendation, Management Response, and Evaluation of Management Response

The Associate Administrator, Office of Aerospace Technology, should establish
Enterprisewide standards for recording, summarizing, and reporting wind tunnel facilities
utilization data.

Management Response. Concur. The Office of Aerospace Technology will develop
and issue the required standards within 90 days of the release of this final management
letter. The complete text of management’s response is in Enclosure 6.

Evaluation of Management Response. Management's planned actions are responsive to
the recommendation. The recommendation is resolved but will remain undispositioned
and open until agreed-to corrective actions are completed.

We appreciate the courtesies and cooperation provided to the auditors during the audit. If
you have questions, or would like to discuss this matter further, please contact Mr. Robert
Wesolowski, Director, Institutional and Infrastructure Management Directorate, at
(202) 358-2567, Mr. David Gandrud, Associate Director, at (650) 604-2672, or Mr. Tony
Lawson, Project Manager, at (301) 286-6524.


[original signed by]
David M. Cushing

6 Enclosures

cc:
ADI/Associate Deputy Administrator for Institutions and Asset Management
ADT/Associate Deputy Administrator for Technical Programs
B/Deputy Chief Financial Officer for Financial Management
BF/Director, Financial Management Division
G/General Counsel
J/Assistant Administrator for Management Systems
JM/Director, Management Assessment Division
                      Objectives, Scope, and Methodology
We performed audit field work at Ames, Glenn, and Langley from January 2003 through
May 2003. To accomplish our objectives of identifying the historical use of NASA wind
tunnels, gathering information about planning and projections for wind tunnel utilization,
comparing historical use to planning and projections, and identifying the number of wind
tunnels mothballed or abandoned within the last 10 years, we performed the following
work:

   •   Interviewed NASA Aerospace Technology personnel to identify the goals and
       objectives of the wind tunnel program.
   •   Interviewed wind tunnel personnel at Ames, Glenn, and Langley to determine
       how wind tunnel utilization is projected and actual rates are calculated and how
       utilization data is maintained.
   •   Interviewed Centers’ wind tunnel personnel to determine the users of wind tunnel
       utilization data.
   •   Determined UOH for selected wind tunnels to provide a uniform basis for
       comparisons among tunnels and Centers.
   •   Compared the Centers’ utilization data, methodologies, and terminology used to
       describe wind tunnel status.
   •   Obtained wind tunnel utilization data from Center personnel and randomly
       verified the information to individual wind tunnel logs.
   •   Researched requirements for recording, summarizing, and reporting wind tunnel
       utilization rates and data.

Additionally, we provided the preliminary results of our audit to the RAND Corporation
study of NASA’s Wind Tunnels and Propulsion Testing Facilities.

We interviewed officials at NASA Headquarters, Ames, Glenn, and Langley to identify
and assess management controls related to the management of wind tunnel facilities and
to identify the wind tunnel utilization information that each Center provided to Office of
Aerospace Technology management. We consider the lack of comparable and
consistently derived wind tunnel utilization data to be a control weakness that needs
management attention. To facilitate more effective oversight of the Agency’s wind
tunnel operations, the Office of Aerospace Technology needs current, accurate, and
consistent wind tunnel utilization data.

We conducted the audit in accordance with generally acceptable government auditing
standards.




                                                                               Enclosure 1
                   Ames Wind Tunnel User Occupancy Hours

                                                            Fiscal Year
                                    1997       1998       1999       2000      2001      2002

    Unitary Plan Wind Tunnel
                Projected Hours       *          *          *         *          3,040    2,656
                   Actual Hours       *          *          *         *          2,201    1,146
     Percentage Actual (Actual ÷          NA         NA         NA        NA    72.4%    43.1%
                      Projected)


         12 Foot Wind Tunnel
                Projected Hours      2,912       2,912      1,552      160        160        80
                   Actual Hours      1,870       3,000      1,582      119        120        54
     Percentage Actual (Actual ÷    64.2%      103.0%     101.9%     74.4%      75.0%    67.5%
                      Projected)


           National Full-Scale
       Aerodynamic Complex
                Projected Hours      **          **         2,585     2,038      2,058     464
                   Actual Hours      **          **         1,801     1,481      2,343     197
     Percentage Actual (Actual ÷                           69.7%     72.7%     113.8%    42.5%
                      Projected)


Notes:

* The Unitary Plan Wind Tunnel was not in operation during fiscal years 1997 through 2000
because of a facility modernization project.

** The National Full-Scale Aerodynamic Complex was not in operation during fiscal years 1997
and 1998 because of a facility modernization project.




                                                                                   Enclosure 2
               Glenn Wind Tunnel User Occupancy Hours

                                                  Fiscal Year
                                1997     1998    1999     2000     2001      2002

    Icing Research Tunnel
             Projected Hours        NA      NA      NA     1,632     3,744     3,672
                Actual Hours     2,918   4,582   2,970     2,570     3,907     4,252
  Percentage Actual (Actual ÷       NA      NA      NA   157.5%    104.4%    115.8%
                   Projected)

10 X 10 Supersonic Tunnel
             Projected Hours        NA      NA      NA     3,208     1,352      792
                Actual Hours     2,894   1,406   2,233     1,311       488      128
  Percentage Actual (Actual ÷       NA      NA      NA    40.9%     36.1%     16.2%
                   Projected)


    8 X 6 Transonic Tunnel
             Projected Hours       NA       NA      NA      200       472       696
                Actual Hours      921    1,192     250      320       270       597
  Percentage Actual (Actual ÷      NA       NA      NA   160.0%     57.2%     85.8%
                   Projected)

   9 X 15 Subsonic Tunnel
             Projected Hours        NA      NA      NA     3,712     2,232     3,280
                Actual Hours     2,861   1,025   2,265     2,630     1,084     2,763
  Percentage Actual (Actual ÷       NA      NA      NA    70.9%     48.6%     84.2%
                   Projected)

   PSL 3 & 4 Air Breathing
             Projected Hours        NA      NA      NA     2,416       944     1,848
                Actual Hours     2,040     456   2,152     1,976     1,272     2,512
  Percentage Actual (Actual ÷       NA      NA      NA    81.8%    134.7%    135.9%
                   Projected)

        Hypersonic Tunnel
             Projected Hours       NA      NA       NA       NA        NA        NA
                Actual Hours        0       0    1,500    1,647     1,680     1,827
  Percentage Actual (Actual ÷      NA      NA       NA       NA        NA        NA
                   Projected)




                                                                       Enclosure 3
               Langley Wind Tunnel User Occupancy Hours

                                                        Fiscal Year
                                  1997      1998      1999      2000      2001      2002

 National Transonic Facility
             Projected Hours       2,400     2,288        912     2,912     1,248     2,400
                Actual Hours          NA        NA      3,056     2,688     3,776     2,160
  Percentage Actual (Actual ÷         NA        NA    335.1%     92.3%    302.6%     90.0%
                   Projected)

  14 X 22 Foot Wind Tunnel
              Projected Hours       3,200     2,320     1,940     3,120     1,968     1,088
                 Actual Hours       5,897     4,250       873       753     2,448       800
   Percentage Actual (Actual ÷    184.3%    183.2%     45.0%     24.1%    124.4%     73.5%
                    Projected)

Transonic Dynamics Tunnel
              Projected Hours          0      2,880     2,880     2,400     1,088     1,760
                 Actual Hours          0      1,120     2,160     2,272     1,712     1,824
   Percentage Actual (Actual ÷        NA     38.9%     75.0%     94.7%    157.4%    103.6%
                    Projected)

  Unitary Plan Wind Tunnel
              Projected Hours       1,824     1,872     1,136      728       168        704
                 Actual Hours       1,642     1,739       302      797       960      1,204
   Percentage Actual (Actual ÷     90.0%     92.9%     26.6%    109.5%    571.4%    171.0%
                    Projected)

   16 Foot Transonic Tunnel
               Projected Hours      3,200     3,200     1,888     3,520     1,648     1,200
                  Actual Hours      2,456     2,933     3,085     2,618       713     2,602
    Percentage Actual (Actual ÷    76.8%     91.7%    163.4%     74.4%     43.3%    216.8%
                     Projected)


20 Foot Vertical Spin Tunnel
              Projected Hours         NA        NA        NA      1,520       800      432
                 Actual Hours        206       717       161        815     1,326      319
   Percentage Actual (Actual ÷        NA        NA        NA     53.6%    165.8%     73.8%
                    Projected)

 20 Inch Supersonic Tunnel
              Projected Hours         NA        NA        NA       400       400       360
                 Actual Hours          0       352       872       184       136         16
   Percentage Actual (Actual ÷        NA        NA        NA     46.0%     34.0%      4.4%
                    Projected)

   Low Turbulence Pressure
                     Tunnel
             Projected Hours        1,968       264       240       712      320       480
                Actual Hours        1,768     1,204     1,479     1,064      736       837
           Percentage Actual       89.8%    456.1%    616.3%    149.4%    230.0%    174.4%



                                                                              Enclosure 4
                                                                             (Page 1 of 2)
                                                        Fiscal Year
                                  1997      1998      1999      2000      2001      2002

.3 Meter Transonic Cryogenic
                        Tunnel
               Projected Hours        800     1,784       NA       280       240       160
                  Actual Hours      1,868     1,972    1,230         0         0       483
    Percentage Actual (Actual ÷   233.5%    110.5%        NA       0%        0%     301.9%
                     Projected)

    8 Foot High Temperature
                        Tunnel
               Projected Hours      1,600     1,600     1,600       712      136        440
                  Actual Hours      1,376     1,304     2,024     1,688      424      2,024
     Percentage Actual(Actual ÷    86.0%     81.5%    126.5%    237.1%    311.8%    460.0%
                     Projected)

  20 Inch Mach 6 Hypersonic
                        Tunnel
               Projected Hours        NA        NA        NA       920      1,040     1,480
                  Actual Hours        NA     1,720     1,064       648      1,644     1,765
    Percentage Actual (Actual ÷       NA        NA        NA     70.4%    158.1%    119.3%
                     Projected)

  20 Inch Mach 6 CF4 Tunnel
               Projected Hours        NA        NA        NA       308       720        0
                  Actual Hours        NA       672       472       496       513        0
    Percentage Actual (Actual ÷       NA        NA        NA    161.0%     71.3%       0%
                     Projected)

31 Inch Mach 10 Tunnel and
        15 Inch Mach 6 High
        Temperature Tunnel
               Projected Hours        NA        NA        NA      1,256      720       680
                  Actual Hours        NA     1,296     1,032      1,088      139         0
    Percentage Actual (Actual ÷       NA        NA        NA     86.6%     19.3%       0%
                     Projected)

         Jet Exit Test Facility
               Projected Hours      1,392       NA        NA       688       200       640
                   Actual Hours     1,312    1,200       504       496       336       448
    Percentage Actual (Actual ÷    94.3%        NA        NA     72.1%    168.0%     70.0%
                     Projected)




                                                                              Enclosure 4
                                                                             (Page 2 of 2)
          NASA Wind Tunnels Mothballed or Abandoned
                    Since Fiscal Year 1992

NASA Center                    Tunnel                   Status    Fiscal Year

      Ames    7 X 10 Foot Tunnel                     Abandoned      1996
              14 Foot Transonic Tunnel               Mothballed     1997
              6 X 6 Foot Supersonic Tunnel           Mothballed     1997
              Experimental Fluid Dynamics Facility   Mothballed     1997
              Fluid Dynamics Laboratory              Mothballed     1997
              8 X 7 Foot Supersonic Tunnel           Mothballed     1998


     Glenn    (No tunnel closures)


    Langley   7 X 10 Foot Tunnel                     Abandoned      1994
              30 X 60 Foot Tunnel                    Abandoned      1996
              8 Foot Transonic Pressure Tunnel       Abandoned      1996
              Transonic Tunnel (Building 585)        Abandoned      1996
              Transonic Tunnel (Building 583)        Abandoned      1996
              60 Inch Mach 18 Helium Tunnel          Abandoned      1996
              2 X 6 Inch LST                         Abandoned      1996
              20 Inch Mach 17 N2 Tunnel              Abandoned      1996
              Open Jet Leg He Tunnel                 Abandoned      1996
              12 Inch Mach 6 High Reynolds Tunnel    Abandoned      1996
              Nozzle Test Chamber                    Abandoned      1997
              22 Inch Mach 20 Helium Tunnel          Abandoned      2001
              18 Inch Mach 8 Quiet Tunnel            Abandoned      2001




                                                                    Enclosure 5
Enclosure 6
